Office of Inspector Geeneral




Decembe
      er 29, 2011

     ANDUM
MEMORA

TO:       	          USAID
                         D/Egypt Mission Directo
                                               or, Walter No
                                                           orth

FROM: 	              Regio
                         onal Inspecto
                                     or General/C           eline Bell /s//
                                                Cairo, Jacque

SUBJEC
     CT: 	           Review of USAIDD/Egypt’s Co ontractors’ C ompliance With the Trrafficking Victims
                     Protec
                          ction Reauth
                                     horization Ac
                                                 ct of 2008 (R
                                                             Report No. 6-263-12-001
                                                                                   1-S)

This memorandum transmits our report on the subjeect review. In finalizing
                                                                         g the reportt, we
carefully considered manageme
                            ent’s comme
                                      ents on the draft reportt and have included the
                                                                                    em in
Appendix x II.

The repoort includes four recommmendations s to USAID//Egypt. In reesponse to the draft reeport,
USAID/EEgypt mission officials ag
                                greed with all four recommendation ns. As a result, manage
                                                                                         ement
decisions
        s have been reached on all recom   mmendation  ns, and final action hass been take
                                                                                         en on
Recomm mendation 2. Please provide the    e Audit Perfformance and Complia     ance Divisio
                                                                                          on of
USAID’s Office of the Chief Financial Officer witth evidence       e of final action to close
Recomm mendations 1, 3, and 4.

Thank yo
       ou for the co
                   ooperation an
                               nd courtesy extended to
                                                     o the review team during
                                                                            g this review.




U.S. Agency for International Development
USAID Officee Building
1/A Nady El-EEtisalat Street
New Maadi
Cairo, Egypt
www.usaid.gov/oig
SUMMARY 

To combat human trafficking, the U.S. Congress enacted the Trafficking Victims Protection Act
of 2000 (TVPA), Division A of Public Law 106–386,1 requiring federal agencies to take action to
address trafficking in persons, identified as a “contemporary manifestation of slavery.” The
TVPA enumerates federal actions to ensure effective punishment of traffickers and to protect
their victims, who may be recruited or transported through the use of force, fraud, or coercion for
the purpose of subjecting them to involuntary servitude.2 Trafficking perpetrators may
confiscate identification documents, restrict victims’ movement, or deceive victims about their
work destinations, and human trafficking may involve the transport of victims both across and
within country borders.

The U.S. Department of State classifies countries based on their efforts to combat human
trafficking, issuing classifications ranging from Tier 1 to Tier 3. A Tier 3 designation indicates
that a country does not comply with the standards to combat human trafficking required by the
TVPA and is not making a significant effort to do so. (Appendix III contains information on the
TVPA standards and the State Department’s human trafficking classifications.) Currently, the
State Department ranks Egypt as a Tier 2 country, indicating that it is making a significant effort
to comply with the TVPA standards. According to the State Department, Egypt is both a source
and a destination country for forced labor and sexual trafficking. Particularly in the more remote
regions of the Sinai, Egypt is a transit point for persons trafficked from one country to another,
according to officials. A 2007 assessment contracted by USAID/Egypt on the status of trafficking
in persons in Egypt identified trafficking for domestic service, prostitution, and child trafficking for
labor as key issues. To address human trafficking, Egypt passed Law No. (64) of 2010
Regarding Combatting Human Trafficking, which prohibits all forms of human trafficking and
prescribes penalties of imprisonment and fines for violations.

The Regional Inspector General/Cairo conducted this review as part of its fiscal year (FY) 2012
annual audit plan to address issues identified in the William Wilberforce Trafficking Victims
Protection Reauthorization Act of 2008 (the Wilberforce Act), Public Law 110–457. From 2010
through 2012, the Wilberforce Act requires USAID’s Office of Inspector General to investigate
contracts and subcontracts under which there is a high risk that the contractor may engage in
acts related to trafficking in persons. As of September 30, 2011, USAID/Egypt had 15 active
contracts valued at approximately $192 million.3 (Appendix IV includes a full listing of
USAID/Egypt contracts active as of September 30, 2011.) The contracts include technical
support, efforts to strengthen nongovernmental organizations, monitoring and evaluation
activities, and support services. According to USAID/Egypt officials, contractor employees


1
  22 U.S.C. 7101, “Trafficking Victims Protection Act.”
2
   TVPA, as amended, describes activities that constitute severe forms of trafficking in persons.
Specifically, these are (1) sex trafficking, in which a commercial sex act is induced by force, fraud, or
coercion, or in which the person induced to perform such act has not attained 18 years of age and (2) the
recruitment, harboring, transportation, provision, or obtaining of a person for labor or services, through the
use of force, fraud, or coercion for the purpose of subjugation to involuntary servitude, peonage, debt
bondage, or slavery.
3
  This number does not include contracts managed by USAID/Egypt’s Office of Procurement for other
missions, USAID/Egypt personal service contracts, or one regional contract managed by the Office of
Middle East Programs and located at USAID/Egypt. For the purposes of this report, contracts in Egyptian
pounds were converted to U.S. dollars using the exchange rate as of November 15, 2011.


                                                                                                            2
working on these contracts are generally professionals with specific skill sets or degrees
designed to support project goals.

The objective of this review was to assess whether (1) USAID/Egypt and its contractors
established sufficient controls to prevent trafficking in persons and (2) USAID/Egypt’s
contractors and subcontractors engaged in trafficking in persons practices in selected programs.

USAID/Egypt has established controls to prevent human trafficking, including taking steps to
implement activities required by the USAID Counter Trafficking in Persons Code of Conduct. In
addition, a review of the one USAID/Egypt contract that relied on employees most at risk of
trafficking found no indication that selected USAID/Egypt contractors and subcontractors were
engaging in trafficking in persons. However, the mission has not ensured that all contracts
include the required Federal Acquisition Regulation (FAR) language related to human
trafficking. This language is a key component to ensuring that contractors are aware of the U.S.
Government’s policy on trafficking in persons and of their obligations as a USAID contractor.

Specifically, the review disclosed the following:

	 USAID/Egypt did not include required language related to human trafficking in some
   contracts (page 4).

	 Selected USAID/Egypt contractors were not engaging in trafficking in persons (page 7).

	 USAID/Egypt has taken actions to combat trafficking in persons (page 8).

To improve the effectiveness of USAID/Egypt’s efforts to combat trafficking in persons, this
review recommends that:

1. 	 USAID/Egypt review and modify its active contracts, as appropriate, to verify that clauses
     regarding combating trafficking in persons are included, as required by the Federal
     Acquisition Regulation (page 6).

2. 	 USAID/Egypt collaborate with USAID/Washington’s Office of Acquisition and Assistance to
     establish a mechanism for providing mission contracting officers with information on
     modifications to indefinite quantity contracts under which the mission has task orders (page
     6).

3. 	USAID/Egypt remind its contracting officers, in writing, to conduct ongoing reviews of
    standard provisions in indefinite quantity contracts and relevant modifications and to include
    required standard provisions in mission task orders, if warranted (page 6).

4. 	USAID/Egypt remind its contracting officers, in writing, to provide contracting officer’s
    technical representatives with copies of any modifications to indefinite quantity contracts
    under which the mission has a task order, as warranted (page 6).

Detailed findings follow. Our evaluation of management comments is on page 10. Appendix I
presents the review scope and methodology, and Appendix II presents the full text of
management comments.




                                                                                                3
REVIEW RESULTS 

USAID/Egypt Did Not Include
Required Language in Some
Contracts

Federal and USAID guidance requires that contracts include information about combating
trafficking in persons and about the responsibilities of contractors4 and contractor employees.
TVPA stipulates that a federal agency may terminate any grant, contract, or cooperative
agreement without penalty if an implementer engages in forms of trafficking in persons,
procures a commercial sex act during the contract period, or uses forced labor. Moreover,
FAR 22.17 and 52.222–50, both entitled “Combatting Trafficking in Persons,” require that
specific language related to combating trafficking in persons be incorporated in all contracts.
FAR 52.222–50 further requires that this same language be included in all subcontracts. In
part, this language notifies contractors of the U.S. Government’s zero-tolerance policy on
human trafficking, contractor requirements to share information about the policy with their
employees, punitive actions for noncompliance, and the responsibility to notify a cognizant
contracting officer about allegations of human trafficking. In accordance with the FAR, the U.S.
Government may take a variety of corrective actions up to suspension and debarment of a
contractor. To formalize USAID’s commitment to combat human trafficking, the Agency
implemented the “USAID Counter Trafficking in Persons Code of Conduct” in January 2011.

As of September 30, 2011, 60 percent (9 of 15) of USAID/Egypt’s active contracts, valued at
$130.5 million, did not include the required FAR clause related to trafficking in persons.
USAID/Egypt’s procurement officials modified one of the six contracts identified as including the
required language—a 3-year contract for USAID/Egypt support services, valued at
approximately $1.5 million—after the review began on October 17, 2011.5 On November 29,
2011, the mission modified seven of the nine contracts identified as not including the required
FAR language to add that language. Of the 15 contracts active as of September 30, 2011, 7
were contracts between USAID/Egypt and implementers to conduct a variety of programs,
including activities to strengthen Government of Egypt ministries and civil society organizations,
support scholarship activities, and provide building support services to USAID/Egypt. An
additional eight contracts were awarded by USAID/Egypt as task orders under indefinite
quantity contracts (IQCs)6 that USAID/Washington’s Office of Acquisition and Assistance (OAA)
awarded and manages. Three of the seven direct USAID/Egypt contracts, valued at $26.4
million, and six of the eight task orders, valued at $104 million, did not include the required
human trafficking language.

Although USAID/Egypt awarded task orders under IQCs, the mission’s procurement staff did not
request copies of IQC modifications that occurred after the IQCs were awarded, which may have

4
  “Contractors” in this context refers to contractors, subcontractors, grantees, and subgrantees.

5
  The value of this contract is 9,058,045 Egyptian pounds, approximately $1.5 million, as of November 15, 

2011.

6
   To expedite the award process, USAID uses indefinite quantity contracts to provide an indefinite

quantity, within stated limits, of supplies or services during a fixed period. Using an IQC, missions can 

implement task orders to use contractor services when officials cannot determine a precise quantity of

supplies or services that the U.S. Government will need during a contract period. 



                                                                                                        4
added the required FAR clause. According to USAID/Egypt’s procurement director, procurement
staff members do not routinely request copies of modifications to IQCs, and OAA does not provide
the contract modifications to the mission routinely when modifications are made. Since
USAID/Egypt did not verify that the FAR clause related to human trafficking was included in
some of its contracts, at least one contractor and many contracting officer's technical
representatives (COTRs) were not aware of the U.S. Government’s policy on human trafficking
or the related FAR requirements. In fact, the one contractor reported having no knowledge of
the federal policy prior to the addition of the FAR clause to the contract in late October 2011.
Despite the inclusion of the FAR language in two of the contracts selected for additional review
and the addition of the language in the third, none of the three implementers had taken specific
steps to inform their employees of the U.S. Government’s zero-tolerance policy on human
trafficking or of punitive actions for policy violations. One implementer stated that employees
were provided an organizational code of conduct, while another stated that the organization was
aware it had an obligation to treat employees ethically. However, the code of conduct
information did not include the specific FAR requirement to apprise contractor and subcontractor
employees of the U.S. Government’s policy on human trafficking. When asked about the
contractors’ obligations, the USAID/Egypt Office of Procurement director stated that the
Christian Doctrine7 holds contractors responsible for compliance with required clauses despite
the absence of the documented information in a contract.

Before receiving information on human trafficking during USAID/Egypt’s FY 2011 ethics training,
most USAID/Egypt COTRs had not received any information or training regarding human
trafficking issues. Although the COTRs are responsible for overseeing contract implementation,
many COTRs reported that they did not fully review indefinite quantity contract standard
provisions that may have included the required clause on human trafficking. As of October
2011, 7 of 15 (47 percent) COTRs for USAID/Egypt contracts active as of September 30, 2011,
were not sure whether the FAR clause was in contracts for which they were responsible, and no
COTRs interviewed had established management controls to ensure that contractors were
complying with the FAR requirements to notify their employees about the U.S. Government
policy on human trafficking.

USAID/Egypt employees offered numerous reasons why mission officials had not included
human trafficking information in contracts. One COTR stated that not including the clause on
combating trafficking in persons in 1 of the 15 mission contracts was an oversight. However, in
this case mission procurement officials modified the contract to include the clause during this
review. Although a contracting officer for three task orders under an IQC focusing on water and
coastal resources management believed that the FAR clause was included in the IQC, the
employee had not fully reviewed the IQC to verify that the trafficking in persons clause was
included, which it was not.

Moreover, USAID/Egypt procurement employees noted that USAID/Washington’s OAA may add
the required language in the IQC modifications but does not ensure that information on
modifications is readily available or provided to mission employees. When IQCs are
implemented, OAA posts IQCs on the Agency’s intranet site but does not always post
modifications to the IQCs or make the information easily available to contracting officers

7
  The case of G.L. Christian and Associates v. United States, 312 F. 2d 418 (Ct. Cl. 1963), cert.
denied, 375 U.S. 954 (1963), resulted in what is referred to as the “Christian Doctrine.” This contracting
rule states that standard clauses mandated by regulation and implementing fundamental procurement
policies must be considered as being in every federal contract, whether or not the contracting officer
physically included the clause in the actual contract.


                                                                                                        5
worldwide, according to USAID/Egypt’s procurement office director. USAID/Egypt employees
also stated that time constraints and the number of standard provisions have diminished
employee initiative to follow up on possible IQC modifications. For example, the mission’s
procurement office director noted one typical USAID/Egypt contact included approximately 114
standard contract provisions. As a proactive measure, the mission’s procurement office director
noted that USAID/Egypt procurement employees could include key clauses in task orders within
a week to ensure that the information is readily available to COTRs and other mission
personnel.

If the required FAR language on trafficking in persons is not included in contracts, implementers
and mission staff responsible for management oversight may not be fully aware of their role in
the U.S. Government’s efforts to combat human trafficking. Contractors may not be aware of
requirements—to notify their employees of the U.S. Government’s zero tolerance policy and of
adverse consequences for policy violations—and USAID/Egypt employees responsible for
management oversight will not routinely review an implementer’s efforts to comply with the FAR
clause, such as including the clause in implementer subcontracts. Under the Christian Doctrine,
contractors are bound by contract provisions required by law, even if contracting officers fail to
include them in a contract. However, this does not mean the failure to include the required
human trafficking language has no adverse impact. Failure to include the required FAR clause
may make it difficult for USAID/Egypt to enforce the Agency’s anti-trafficking-in-persons
requirements and impose penalties if violations occur. Consequently, this review makes the
following recommendations.

   Recommendation 1. We recommend that USAID/Egypt review and modify its active
   contracts, as appropriate, to verify that clauses regarding combating trafficking in
   persons are included, as required by the Federal Acquisition Regulation.

   Recommendation 2.           We recommend that USAID/Egypt collaborate with
   USAID/Washington’s Office of Acquisition and Assistance to establish a mechanism for
   providing mission contracting officers with information on modifications to indefinite
   quantity contracts under which the mission has task orders.

   Recommendation 3. We recommend that USAID/Egypt remind its contracting officers,
   in writing, to conduct ongoing reviews of standard provisions in indefinite quantity
   contracts and relevant modifications and to include required standard provisions in
   mission task orders, if warranted.

   Recommendation 4. We recommend that USAID/Egypt remind its contracting officers,
   in writing, to provide contracting officer’s technical representatives with copies of any
   modifications to indefinite quantity contracts under which the mission has a task order, as
   warranted.




                                                                                                 6
Selected USAID/Egypt Contractors
Were Not Engaging in Human
Trafficking
TVPA, as amended, describes human trafficking, in part,8 as recruitment, harboring,
transportation, provision, or obtaining of a person for labor or services, through the use of force,
fraud, or coercion to subject a person to involuntary servitude, debt bondage, or slavery.
FAR 22.17 and 52.222–50, both entitled “Combatting Trafficking in Persons,” require contracts
to include a clause prohibiting contractors, subcontractors, and contractor employees from
engaging in human trafficking and specify punitive damages for infractions. Specifically, during
the performance of a contract with the U.S. Government, FAR 22.17 prohibits contractors from
engaging in forms of trafficking in persons, procuring commercial sex acts, and using forced
labor in the performance of the contract. Moreover, FAR 52.222–50 allows the U.S.
Government remedies against contractors that violate this prohibition, up to and including
contract termination.

For the USAID/Egypt contracts reviewed, there was no indication that the mission’s contractors
and subcontractors engaged in trafficking of persons under contracts ongoing as of
September 30, 2011. USAID/Egypt did not have any contracts that employed significant
numbers of staff in low-wage, low-skill positions. In fact, only one active contract, a 3-year
contract with TransCentury Associates (TCA) valued at $1.5 million, involved low-wage, low-skill
workers. TCA hired employees, primarily of Egyptian origin, to perform janitorial, maintenance,
repair, business support, and gardening services. According to USAID/Egypt officials, TCA is a
U.S. company with an Egyptian branch that provides business support services as well as most
of the materials, supplies, and spare parts needed to repair and maintain USAID/Egypt
properties. TCA subcontracts with Ayad & Sons Inc. (Ayad), an Egyptian company, to provide
building repair and maintenance services, including maintenance crews, janitors, and
gardeners.

TCA and its subcontractor, Ayad, employ 45 staff members. They include employees at the
USAID/Egypt office and a five-person mobile maintenance crew to provide services to the
mission director’s private residence and a mission warehouse. Although Ayad employs 33 staff
members under its contract with TCA, TCA did not include the FAR clause prohibiting human
trafficking in its subcontract with Ayad, as required, until October 23, 2011.

TCA and Ayad employees reported no instances of threats, abuse, or coercion, and they stated
that their mobility was not restricted. Employment contracts clearly defined the terms of
employment, pay, and processes for termination. Generally, the employees reported that they
were given accurate information on their terms of employment and pay rates. In addition, the
employees reported that their employer did not have custody of any personal employee
documents, such as work permits or identification cards. TCA reported paying its employees
using direct deposits to minimize the risks associated with cash salary payments, while Ayad
pays employees in cash. However, a review of time and pay records raised no concerns related
to human trafficking.



8
  Instances in which a commercial sex act is induced by force, fraud, or coercion, or in which the person
induced has not attained 18 years of age are also defined as trafficking. These types of trafficking
activities are considered “severe” forms of trafficking.


                                                                                                       7
This detailed review provided no indication that the USAID/Egypt contractors were engaging in
activities that could constitute human trafficking. As a result, the mission has some assurance
that the contractors selected for this review are conforming to regulations prohibiting human
trafficking. Consequently, we make no recommendations at this time.

USAID/Egypt Has Taken Actions to
Combat Trafficking in Persons
USAID issued a Counter Trafficking in Persons Code of Conduct in January 2011. The Agency
designed the code of conduct to increase USAID employees’ awareness of human trafficking
and educate them to “recognize, report, and address human trafficking offenses.” Additionally,
in April 2011, USAID provided guidance on implementation of the code by and at missions.
That guidance identifies the following responsibilities:

	 Missions are required to designate a Counter Trafficking in Persons Coordinator to serve as
   the primary point of contact for mission staff on human trafficking.

	 Regional Legal Advisors are required to provide information on human trafficking during
   annual ethics training provided to USAID employees worldwide.

	 Missions are encouraged to develop anti-trafficking-in-persons strategies across all
   technical areas and integrate anti‐trafficking-in-persons components into ongoing
   programming.

In addition to these activities, USAID’s Counter Trafficking in Persons Code of Conduct requires
USAID/Washington’s Human Resources Office to inform all candidates for USAID employment
of the code before hiring them. However, the language of the code does not extend this
requirement to USAID missions.

USAID/Egypt has taken steps to comply with the Agency’s Counter Trafficking in Persons Code
of Conduct, including designating a mission coordinator, providing training to employees and
implementers, and ensuring that newly hired employees are aware of the code.

	 Counter Trafficking in Persons Coordinator. USAID/Egypt officials appointed a COTR as
   the Counter Trafficking in Persons Coordinator in May 2011. The COTR is responsible for a
   mission project that addresses violence against women and children, including trafficking.
   Besides sharing information on trafficking with other mission employees, the coordinator is
   expected to act as a liaison between USAID/Egypt and USAID/Washington on human
   trafficking issues and has participated in the Agency-wide development of a counter
   trafficking strategy and action plan. These activities are part of the Agency’s effort to
   increase USAID accountability by ensuring that contractors understand human trafficking
   issues and regulations. The coordinator plans to conduct training for USAID/Egypt
   employees on human trafficking issues, although no training dates have been set.

	 Annual Ethics Training. As required by the code of conduct, USAID/Egypt’s Regional
   Legal Advisors (RLAs) have included information on the U.S. Government’s policy on
   human trafficking in the mission’s annual ethics training. From October to December 2011,
   the RLAs provided information on human trafficking in four annual ethics training sessions
   attended by approximately 109 of 205 USAID/Egypt employees—U.S. direct hires and
   locally engaged staff. Observers of these sessions reported that USAID/Egypt employees


                                                                                              8
    had multiple questions regarding trafficking, including questions on USAID/Egypt’s and
    implementers’ responsibilities when working with small or family-owned businesses.

	 Human Trafficking Information in Mission Activities. As a proactive measure to further
   educate USAID/Egypt employees, mission officials have begun to incorporate information
   on human trafficking into ongoing activities, such as periodic planning meetings. Mission
   COTRs reported that the training has increased their understanding of human trafficking.
   According to the RLAs and USAID/Egypt technical office officials, between August and
   October 2011, the RLAs met with staffs of USAID/Egypt’s five technical offices9 to brief them
   on their responsibilities related to human trafficking. Of 13 COTRs, 8 (62 percent)
   commented that the recent training was the only training on human trafficking they had
   received while employed at USAID.10 To further educate COTRs and agreement officer’s
   technical representatives responsible for management oversight, USAID/Egypt’s
   procurement office employees were working with the RLAs to incorporate information on
   human trafficking and the related FAR requirements into upcoming training on key standard
   provisions applicable to USAID projects, including regulations related to human trafficking,
   antiterrorism, and voluntary population planning.

    USAID/Egypt officials also reported providing training on combating human trafficking to
    implementers. In October and November 2011, the RLAs reported providing training to
    implementers working on basic education projects, to new implementers working in the
    economic development sector, and to new and existing implementers in the democracy and
    governance sector.

	 New Employee Notification. The USAID Counter Trafficking in Persons Code of Conduct
   does not specifically require missions to notify potential employees of the code. However,
   USAID/Egypt began sharing information on the code with potential employees in November
   2011. USAID/Egypt’s human resources officer believes that incorporating information on
   the code into vacancy announcements may not be practical because the term may not be
   easily understood. However, before they are hired, USAID/Egypt requires applicants to sign
   a memorandum on standards of conduct including the code on human trafficking.

As a result of the issuance of the USAID Counter Trafficking in Persons Code of Conduct and
USAID/Egypt’s efforts to increase employee awareness of human trafficking, mission
employees’ awareness of human trafficking is improving. Consequently, this review makes no
recommendation to the mission regarding raising awareness of human trafficking among its
employees.




9
   The Office of Health and Population, the Office of Policy and Private Sector, the Office of Production
Sector Development, the Office of Education and Training, and the Office of Democracy and Governance.
10
   Four COTRs reported they had received no training at the time of our review because they had not yet
participated in the ethics training. One other COTR reported receiving limited training on human
trafficking shortly after being hired by USAID.


                                                                                                       9
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Egypt provided its comments on our draft report and provided its plan of action for
addressing each of the four recommendations in the draft review report. We have reviewed the
response and determined that management decisions have been reached on all
recommendations, and final action has been taken on Recommendation 2.

Recommendation 1. The mission agreed to review and modify its active contracts, as
appropriate, to verify that clauses regarding combating trafficking in persons are included, as
required by the FAR. USAID/Egypt modified seven of the nine contracts identified as not
including the FAR clause on November 29, 2011. The mission plans to modify the remaining two
contracts by March 31, 2012. Because human trafficking clauses are also required in assistance
awards (grants and cooperative agreements), the mission also plans to undertake a review of all
USAID/Egypt assistance awards in the near future. Moreover, USAID/Egypt’s procurement office
also plans to review all contracts, grants, and cooperative agreements for the USAID missions it
supports in Lebanon, Morocco, and Yemen. Therefore, a management decision has been
reached on this recommendation, with final action anticipated by March 31, 2012.

Recommendation 2. The mission agreed to collaborate with OAA to establish a mechanism
for providing mission contracting officers with information on modifications to indefinite quantity
contracts under which the mission has task orders. The mission began collaborating with OAA
in November 2011. On November 28, 2011, the director of USAID/Egypt’s procurement office
requested that OAA identify a mechanism and further discussed this issue with OAA in
December 2011. While an appropriate mechanism is still under development, USAID/Egypt
worked to collaborate with OAA on this issue. Therefore, a management decision has been
reached, and final action has been taken on this recommendation.

Recommendation 3. The mission agreed to remind its contracting officers, in writing, to
conduct ongoing reviews of standard provisions in IQCs and relevant modifications and to
include required standard provisions in mission task orders, if warranted. The director of
USAID/Egypt’s procurement office will issue a notice to mission contracting officers and
procurement specialists by March 31, 2012, instructing them to review each USAID/Egypt task
order to ensure that the task orders include all required standard provisions that are not
included in the relevant IQC. As a proactive measure, the procurement office will also review
task orders for each of the missions it supports in Lebanon, Morocco, and Yemen to ensure that
the task orders include all required standard provisions not found in the relevant IQCs.
Therefore, a management decision has been reached on this recommendation, with final action
anticipated by March 31, 2012.

Recommendation 4. The mission agreed to remind its contracting officers, in writing, to
provide COTRs with copies of any modifications to indefinite quantity contracts under which the
mission has a task order, as warranted. The director of USAID/Egypt’s procurement office will
issue a notice to the mission’s contracting officers and procurement specialists by March 31,
2012, requesting that they provide copies of modifications and standard provisions to the
relevant COTRs.       Therefore, a management decision has been reached on this
recommendation, with final action anticipated by March 31, 2012.



                                                                                                10
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo conducted this review in accordance with the evidence
and documentation standards in Government Auditing Standards, Paragraph 7.55 and
Paragraphs 7.77 through 7.84.11 Those standards require that we obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions, in accordance with our
review objectives. We believe that the evidence obtained provides that reasonable basis.

The review objective was to determine whether (1) USAID/Egypt and its contractors established
sufficient controls to prevent trafficking of persons and (2) USAID/Egypt’s contractors and
subcontractors engaged in trafficking in persons practices in selected programs. Review
fieldwork was conducted at USAID/Egypt from October 17 to November 27, 2011. We reviewed
15 active USAID/Egypt contracts valued at approximately $192 million as of September 30,
2011.12 These contracts included a variety of mission activities, including technical support to
the Government of Egypt and nongovernmental organizations, a scholarship program, and
support services to USAID/Egypt. Security restrictions limited the areas we could visit,
preventing us from conducting visits to one implementer identified as having recently employed
low-wage, low-skill labor—labor at risk for trafficking. Because of this restriction on the scope of
the review, we limited our conclusions to the items we could review.

In planning and performing the review, we assessed management controls related to
documentation, management review, effective internal and external communication, and
management of human capital. Specific management controls assessed included verifying that
contracts and subcontracts contained the required language, reviewing activities in place to
ensure mission and implementer awareness of human trafficking regulations, and reviewing
documentation controls over processes for notifying new USAID/Egypt employees of anti-
trafficking policies. We conducted the review through interviews with mission employees,
implementers, and implementer employees; observations of mission and implementer activities;
and review of reports and files provided by the mission. Specifically, we obtained an
understanding of and evaluated USAID/Egypt’s inclusion of required anti-human-trafficking
contract language, implementation of the Agency’s Counter Trafficking Code of Conduct
activities, and oversight performed by the contracting officers or COTRs.

We conducted the review at USAID/Egypt in Cairo and visited implementer offices in Cairo. We
also conducted site visits to one contractor’s work site in Cairo and made observations of the
working conditions of another contractor’s employees at the USAID/Egypt office.

Methodology
To answer the review objectives, we reviewed contracts and relevant modifications to determine
whether USAID/Egypt included required FAR language on human trafficking in all contracts
active as of September 30, 2011. For task orders under USAID/Washington-managed IQCs,

11
  Government Auditing Standards, July 2007 Revision (GAO-07-731G).

12
  This number does not include contracts managed by USAID/Egypt’s procurement office for other 

missions, USAID/Egypt personal service contracts, or one regional contract managed by the Office of 

Middle East Programs, located at USAID/Egypt. 



                                                                                                 11
                                                                                      Appendix I


we also reviewed the original IQC. We interviewed USAID/Egypt officials, including the Regional
Legal Advisors, procurement and program office officials, the USAID/Egypt Counter Trafficking
in Persons Coordinator, and mission implementers to gain an understanding of their awareness
of the U.S. Government’s policy on combating human trafficking and related requirements. We
also interviewed the contracting officer’s technical representatives for active contracts to
determine their understanding of trafficking in persons and the controls established to mitigate
the risks that USAID/Egypt contractors will engage in human trafficking. We considered the
extent to which USAID/Egypt complied with requirements designed to prevent trafficking in
persons.

To select contracts for a more in-depth analysis, we reviewed multiple documents related to
trafficking in persons, including information specific to human trafficking concerns in Egypt.
Using information from these documents and interviews, we determined that areas of high risk
in the mission’s portfolio of contracts were those that involved the use of low-skill, low-wage
labor, such as contracts with construction, infrastructure repair, or maintenance components.

We selected a judgmental sample of three contracts valued at $12 million that included activities
with higher risk of trafficking or oversight of activities at risk of trafficking. For the three
contracts, we interviewed implementer officials and reviewed ongoing subcontracts. Because
testing was based on a judgmental sample, the results cannot be projected to the universe of all
active contracts. However, we believe that our work provides a basis for our conclusion. On the
basis of our review of the three selected contracts, we determined that only one contract had
ongoing activities involving the use of low-wage or low-skill labor. We interviewed a statistical
sample of the 25 contractor and subcontractor employees who work as janitors, gardeners, and
business center and maintenance staff. The interview sample size allows the information
obtained to be projected to the universe of low-wage, low-skill employees working under this
contract. Further, we observed onsite working conditions for contractor and subcontractor
employees; reviewed pay records for July, August, and September 2011; and reviewed
employee contracts to determine whether anomalies existed that would indicate that human
trafficking may be occurring.

We also reviewed applicable laws, regulations, and USAID policies and procedures regarding
trafficking in persons. This included TVPA and its reauthorizations, including the Wilberforce
Act; FAR 22.17 and 52.222–50, both entitled “Combatting Trafficking in Persons”; and the
USAID Counter Trafficking in Persons Code of Conduct. In addition, we considered the
applicability of Egyptian Law No. (64) of 2010 Regarding Combatting Human Trafficking, and
sections of Law No. 12 of 1996 Promulgating the Child Law, as amended by Law No. 126 of
2008, for information related to Egyptian child labor standards.




                                                                                              12
                                                                                   Appen
                                                                                       ndix II



         MA
          ANAG
             GEMENT
                  T COM
                      MME
                        ENTS
                           S



         Memorrandum

         To:               Jacq
                              queline Be
                                       ell, Region
                                                 nal Inspecctor Gene
                                                                   eral/Cairo

         From:             Waltter North, Mission Director, USAID/Eg
                                                                   gypt/s/

         Subjec
              ct:          Review of USA  AID/Egyppt’s Contra
                                                            actors’ Co
                                                                     ompliancee with
                           the Trafficking
                                         g Victims Protection
                                                            n Reauthoorization Act of
                           20088 (Report Number 6-263-12--00X-S, da  ated Dece ember
                           4, 20
                               011)

         Date:             Dece
                              ember 15, 2011

         The following is the Missio
                                   on respon
                                           nse to the
                                                    e above re
                                                             eview.

         Recommmendation No. 1: We reco       ommend that USAIID/Egypt review an     nd
         modify its active contractss, as apprropriate, to
                                                         o verify th
                                                                   hat clause
                                                                            es regardin
                                                                                      ng
         combating trafficcking in pe
                                    ersons are e includedd, as requuired by th
                                                                             he Federa
                                                                                     al
         Acquisition Regu ulation.

         Missio
              on Response:

         The Mission con  ncurs with this recommendattion to enssure that clauses
         regardiing comba ating traffiicking in persons are includeed in its active
         contrac
               cts as required by Federal Acquisition               ons and has alread
                                                          n Regulatio                  dy
         taken steps to co omplete thhis recom mmendatio  on by Marrch 31, 20012.
         Furtherrmore as such clau  uses are re  equired in
                                                          n grants and coope erative
         agreemments as well, the Mission’s Procurem     ment Officee will unde
                                                                              ertake a
         review,, in the ne
                          ear future, of all its assistancce awards (grants and
UNIT
   TED STATE
           ES AGENCY
                   Y for INTERN
                              NATIONAL DEVELOPM ENT / EGYP
                                                         PT
USAID                                           IN--COUNTRY MA    AIL:
1A Ah hmed Kamel Street                         P.O
                                                  O. Box 32, Maa adi             Tel: (202) 522 7000
off El--Laselki Street – New Maadi              Cairo - Egypt                    Fax: (202) 516 4628
Cairoo - Egypt                                  Pos stal Code: 114
                                                                 435                  (202) 516 4659

                                                                                             13
                                                                          Appendix II


        cooperative agreements) for Egypt as well as all awards for other USAID
        missions it covers (Lebanon, Morocco and Yemen) and modify such
        awards, as appropriate, to include the applicable FAR or ADS clause on
        trafficking in persons.

        In view of the above, USAID/Egypt believes that a management decision
        has been made for this recommendation and a copy of the modification for
        seven of the nine awards was already sent to the RIG the week of
        November 26, 2011. The target date for final action for the remaining two
        contracts at the Egypt Mission is March 31, 2012.


        Recommendation No. 2: We recommend USAID/Egypt collaborate with
        USAID/Washington’s Office of Acquisition and Assistance to establish a
        mechanism for providing mission contracting officers with information on
        modifications to indefinite quantity contracts under which the mission has
        task orders.

        Mission Response:

        The Mission concurs with this recommendation but believes that the
        needed action for modifying Washington based IQCs and notifying
        Missions that issued task orders under such IQCs of such modification is
        the responsibility of USAID/Washington Office of Acquisition and
        Assistance (OAA). However, the Mission’s Procurement Office Director
        contacted OAA by e-mail the week of November 28, 2011 requesting that
        OAA identify such a world-wide notification mechanism. Several OAA
        managers are already involved in a discussion of this topic and further
        discussion will take place on the topic at the OAA conference the week of
        December 12, 2011. For the good of the Agency, such a mechanism
        cannot be designed solely for task orders issued by USAID/Egypt but
        needs to be done for world-wide use so that any and all IQC modification
        notices are provided to Missions worldwide that issue task orders under the
        applicable IQC.

        In view of the above, the Mission believes that a management decision has
        been made for this recommendation. Furthermore, a copy of the e-mail to
UNITED STATES AGENCY for INTERNATIONAL DEVELOPMENT / EGYPT
USAID                                   IN-COUNTRY MAIL:
1A Ahmed Kamel Street                   P.O. Box 32, Maadi              Tel: (202) 522 7000
off El-Laselki Street – New Maadi       Cairo - Egypt                   Fax: (202) 516 4628
Cairo - Egypt                           Postal Code: 11435                   (202) 516 4659

                                                                                    14
                                                                                Appendix II


        OAA on the subject was sent to the RIG on November 28, 2011.

        Recommendation No. 3: We recommend USAID/Egypt remind its
        contracting officers, in writing, to conduct ongoing reviews of standard
        provisions in indefinite quantity contracts and relevant modifications and to
        include required standard provisions in mission task orders, if warranted.

        Mission Response

        The Mission concurs with this recommendation as all clauses required by
        the FAR, such as the TIP clause, should be in all IQCs. By March 31,
        2012, the Director of the Mission’s Procurement Office will issue a notice to
        its Contracting Officers and Procurement Specialists instructing them to
        review each task order for Egypt to ensure each task order includes all
        required standard provisions not found in the applicable IQC in order to be
        in accordance with the FAR for all future task orders issued after March 31,
        2012.

        Furthermore the Mission’s Procurement Office will review the task orders of
        its client missions (Lebanon, Morocco and Yemen) in the near future to
        ensure each task order includes all required standard provisions not found
        in the applicable IQC in order to be in accordance with the FAR .

        In view of the above, the Mission believes that a management decision has
        been made and that final action will be based upon providing you with such
        USAID/Egypt notice to the Contracting Officers and Procurement
        Specialists for all Egypt Mission task orders. The Target Date for final
        action is March 31, 2012.

        Recommendation No. 4: We recommend USAID/Egypt remind its
        contracting officers, in writing, to provide contracting officer’s technical
        representatives with a copy of any modifications to indefinite quantity
        contracts under which the mission has a task order, as warranted.

        Mission Response

        The Mission concurs with this recommendation. In the Director of the
UNITED STATES AGENCY for INTERNATIONAL DEVELOPMENT / EGYPT
USAID                                      IN-COUNTRY MAIL:
1A Ahmed Kamel Street                      P.O. Box 32, Maadi                 Tel: (202) 522 7000
off El-Laselki Street – New Maadi          Cairo - Egypt                      Fax: (202) 516 4628
Cairo - Egypt                              Postal Code: 11435                      (202) 516 4659

                                                                                          15
                                                                           Appendix II


        Mission’s Procurement Office written notice to the Contracting Officers and
        Procurement Specialists, in response to Recommendation #3, the notice
        will request that the Contracting Officers and Procurement Specialists
        provide the COTRs with a copy of any modifications and standard
        provisions to the IQCs under which the mission has a task order when
        received by the Contracting Officer, as warranted.

        In view of the above, the Mission believes that a management decision has
        been made and that final action will be based upon providing you with such
        USAID/Egypt notice to the Contracting Officers and Procurement
        Specialists for all Egypt Mission task orders. The Target Date for final
        action is March 31, 2012.

        End of Doc.




UNITED STATES AGENCY for INTERNATIONAL DEVELOPMENT / EGYPT
USAID                                   IN-COUNTRY MAIL:
1A Ahmed Kamel Street                   P.O. Box 32, Maadi              Tel: (202) 522 7000
off El-Laselki Street – New Maadi       Cairo - Egypt                   Fax: (202) 516 4628
Cairo - Egypt                           Postal Code: 11435                   (202) 516 4659

                                                                                    16
                                                                                       Appendix III


         Trafficking Victims Protection Act of 2000 Standards and 

          Department of State Human Trafficking Classifications 

TVPA defines the minimum standards for the elimination of trafficking as the following:

   “(1) The government of the country should prohibit severe forms of trafficking in persons
   and punish acts of such trafficking.
   (2) For the knowing commission of any act of sex trafficking involving force, fraud,
   coercion, or in which the victim of sex trafficking is a child incapable of giving meaningful
   consent, or of trafficking which includes rape or kidnapping or which causes a death, the
   government of the country should prescribe punishment commensurate with that for
   grave crimes, such as forcible sexual assault.
   (3) For the knowing commission of any act of a severe form of trafficking in persons, the
   government of the country should prescribe punishment that is sufficiently stringent to
   deter and that adequately reflects the heinous nature of the offense.
   (4) The government of the country should make serious and sustained efforts to
   eliminate severe forms of trafficking in persons.”

As required by TVPA, the U.S. Department of State produces an annual report to Congress
providing information on countries’ efforts to reach compliance with the TVPA’s minimum
standards. The Department of State has developed tiered systems for ranking countries’
compliance with the TVPA standards, as described on the following page.




                                                                                                   17
                                                                                             Appendix III



                     U.S. Department of State Human Trafficking Classifications

 Classification                                          D
                                                         	 escription
Tier 1 	             Countries whose governments fully comply with the TVPA’s minimum standards
                     for the elimination of trafficking.
Tier 2 	             Countries whose governments do not fully comply with the TVPA’s minimum
                     standards but are making significant efforts to bring themselves into compliance
                     with those standards.
Tier 2 Watch List	   Countries whose governments do not fully comply with the TVPA’s minimum
                     standards, but are making significant efforts to bring themselves into compliance
                     with those standards AND:
                     a) the absolute number of victims of severe forms of trafficking is very significant
                     or is significantly increasing;
                     b) there is a failure to provide evidence of increasing efforts to combat severe
                     forms of trafficking in persons from the previous year, including increased
                     investigations, prosecutions, and convictions of trafficking crimes, increased
                     assistance to victims, and decreasing evidence of complicity in severe forms of
                     trafficking by government officials; or
                     c) the determination that a country is making significant efforts to bring itself into
                     compliance with minimum standards was based on commitments by the country
                     to take additional steps over the next year.
Tier 3 	             Countries whose governments do not fully comply with the minimum standards
                     and are not making significant efforts to do so.


   The TVPA allows the U.S. Government to withhold or withdraw nonhumanitarian, non-trade-
   related foreign assistance to governments of countries in Tier 3. In addition, Tier 3 countries
   may not receive funding for government employees’ participation in educational and cultural
   exchange programs.

   The Wilberforce Act requires that any country that has been on the Tier 2 Watch List for 2
   consecutive years and that would otherwise continue to be on the Tier 2 Watch List for the next
   year instead be ranked Tier 3 for the next year.




                                                                                                       18
                                                                                         Appendix IV



             USAID/Egypt Contracts Active as of September 30, 2011 (Not Audited)

                                                                               Approximate
                                                                                Number of      Value
  Program         Contractor        Dates                Purpose
                                                                                Contractor   ($ Million)
                                                                               Employees*
                                               To improve the livelihood of
                                               low-income Egyptians in the
                                               Sinai through the promotion
                 International
                                   8/2008 – 
 of sustainable development
Life Sinai       Resources                                                         4            9.0        

                                    1/2012
    and through community
                 Group
                                               interventions that address
                                               basic needs while preserving
                                               cultural heritage.
                                               To support the Government
Water Policy
                 Chemonics 	                   of Egypt to strengthen the
and 	                              10/2008 –
                 International 	               policy, legal, and regulatory       4            17.6
Regulatory	                         9/2012
                 Inc.	                         framework for water and
Reform
                                               wastewater.
Water and 	                                    To support Government of
                 Chemonics
Wastewater                         10/2008 – 	 Egypt efforts to promote
                 International 	                                                   31           17.9
Sector                              9/2012	    sustainability of the water
                 Inc.
Support 	                                      and wastewater sector.
                                               To expand community and
Integrated
                                               organizational development
Water            International
                                   1/2009 –    work for integrated water
Resource         Resources 	                                                       16           9.6
                                    9/2012     resource management, with
Management       Group
                                               a focus on sustainability and
II
                                               impact
Pyramids
                                               To lower groundwater levels
Plateau
                                   10/2009 –   around the Great Sphinx in
Ground           AECOM 	                                                           1            1.8
                                    11/2011    the pyramids plateau at
Water
                                               Giza.
Lowering
                                              To enhance Egypt’s
                                              competitiveness through
                                              regulatory reform,
Egyptian         Chemonics
                                   8/2010 – 
 streamlined business
Competitiven     International                                                     39           26.6
                                    8/2013
   processes, improved labor
ess Project      Inc.
                                              skills and productivity, and
                                              financial sector
                                              modernization.
                                              To address key constraints
                                              to improving Egypt’s trade
Trade
                 Nathan            6/2011 –   environment, focusing on
Facilitation 	                                                                     3            11.0
                 Associates         5/2014    reform measures to enhance
Project
                                              trade at the border and
                                              strengthening internal trade.




                                                                                                      19
                                                                                                Appendix IV


                                                                                  Approximate
                                                                                   Number of          Value
   Program         Contractor        Dates                 Purpose
                                                                                   Contractor       ($ Million)
                                                                                  Employees*
                                                 To provide support services
                                                 for students from the
                                                 Government of Egypt’s
 Forecast
                  World             5/2011 –     Ministry of Health completing
 MBA                                                                                     2              0.3        

                  Learning Inc.     12/2012      Masters of Business
 Program
                                                 Administration programs
                                                 begun under a prior
                                                 USAID/Egypt contract.
                                                 To support USAID/Egypt’s
                  Management
 Civil Society                                   civil society program
                  Systems           9/2010 –
 Support                                         activities and strengthen               9              8.2
                  International      9/2013
 Project                                         Egyptian civil society
                  Inc.
                                                 organizations.
 Human                                           To increase the capacity of
 Rights /                                        the Government of Egypt to
                  Chemonics
 Violence                           6/2007 –     advocate for policies that
                  International                                                         24             18.1
 Against                             5/2012      protect women and children
                  Inc.
 Women and                                       and respond to violence
 Children                                        against this population.
                                                 To improve the quality of
 Technology
                                                 teaching, learning, and
 for Improved     Creative          9/2007 –
                                                 school management through              24             31.3
 Learning         Associates         3/2013
                                                 upgraded technology in
 Outcomes
                                                 select Egyptian schools.
 Monitoring                                      To provide technical
 and              JBS              12/2009 –     assistance for monitoring
                                                                                         2              1.1
 Evaluation       International     1/2012       and evaluating USAID/
 Project                                         Egypt’s education portfolio.
                                                 To improve learning
                                                 outcomes in selected
 Girls’                                          Egyptian schools by
                  Research
 Improved                           2/2008 –     expanding girls’ education,
                  Triangle                                                              32             37.9

 Learning                            9/2012      improving teaching and
                  Institute
 Outcomes                                        learning, and strengthening
                                                 management and
                                                 governance.
                                                 To conduct a study tour to
                                                 introduce Ministry of
 Observation      World             8/2011 –
                                                 Education officials to the              5               .1
 Study Tour       Learning          10/2011
                                                 U.S. science, technology,
                                                 math magnet school model.
                                                 To obtain management
                                                 services for USAID/Egypt
 USAID/Egypt                                     including operational,
                  TransCentury      8/2010 –
 Management                                      custodial, and maintenance             12              1.5
                  Associates         7/2013
 Services                                        services, telephone operator
                                                 and receptionist services,
                                                 and gardening services.
 Total                                                                                  208            192.0
* This reflects direct contractor long-term employees only, including both full- and part-time staff. Short-
term consultants and subcontractor staff are not included.


                                                                                                              20
